■ V

jgO°5?S
FILED
AUG 2 0 2020
OFFICE OF THE CLERK
SUPREME COURTSir

IN THE
SUPREME COURT.OF THE UNITED STATES

James M. Kerven
— PETITIONER
(Your Name)
vs.

United States of America
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

2nd Circuit Appellate Court / As 19-722
(NAME OF COURT THAT LAST RULED ON-MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

James M. Kerven
(Your Name)

84 Creek Lane
(Address)

16365

Warren Pa.
(City, State, Zip Code)

315-350-1561) (Phone Number)

• .. v

QUESTION(S) PRESENTED

1. Do You think Justice Louis Brandeis using his
Brandeis Arithmetic could get standing before the
court without a particularized injury.?
2. Do you think God herself, could get standing
before the court using her superior investigative
skills without a particularized injury?
3. Could you envision a situation where God
herself, could get standing in a citizen suit using
her superior investigative skills, without a
particularized injury but instead using an
“exceptional particularized grievance”,where the
court retained the prudential discretion to judge it a
generalized grievance if she was faking it?
4. Given Justice Jackson’s statement in “West
Virginia v. Barnette” about rights guaranteed by the
“Bill of Rights” which include majoritarian rights
“these rights are not subject to a vote” do you
think allowing the situation described in question 3.
would be more constitutional than the current
prudential rules of standing?
5. mv view is inherent in those protected rights
particularly when one of them is the right to
petition for redress of grievances is the right to
petition for redress with a common injury and an
exceptional particularized grievance. Kerven
believes there is also often a discernible difference
between wrongful omission and the Brandeis
concept of government as bad actor. However,
unlike Justice Brandeis and God herself, the
Lesser Kerven has a particularized injury. See
reasons for granting the Writ page 12.

I

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

, II

TABLE OF CONTENTS
OPINIONS BELOW

1

2

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4-11

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

12
13

CONCLUSION

INDEX TO APPENDICES

14-19

APPENDIX A

2ND CIRCUIT
19-26

APPENDIX B

NDNY
APPENDIX C -

V.

. .y* ,

EN BANC DENIAL

•

i

27-23

APPENDIX D
APPENDIX E
APPENDIX F

III

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

West Virginia v. Barnette 319 US 624(1943)

State IsAmenCanS Uni,6d fW Separation of Church and
Earth" * S°dt^U.t“5(14975)S'555’560°"2)
Vance v. Bradley 440 U.S. 93,97, (1979)
Bi-Metallic Investments v, State Board
of Equalization 239 U.S.441(1915)
<;

STATUTES AND RULES
Worldwide System of Taxation
35% STR Statutoiy Tax Rate
ASC 740 Accounting for income Taxes
“Increased Understanding of Accounting for Income Taxes Through Effective Tax Rate
Calculations and Reconciliations.” THE ACCOUNTING EDUCATORS JOURNAL” Volume XXI
2011 James S.Serocki, Joseph H. Callaghan
_

OTHER
K;

- in the United

SnSruS'^eSf:8a8rdin9 35 “'tothe'CLion ot Powe^
IV

Suffolk

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
/9-13JL fit**. SSW ^77^77/
; or, r
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
/

The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
c.v C€>7//Z /***/?-A7V3 fiac £3- or>
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

A
to

to

JURISDICTION
[ 1 For flasfta from fpdpral rniirtg-

The date^on^hic^^eJMted States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: S’/
, and a copy of the
order denying rehearing appears at Appendix

c-

[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

!

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

v;

Given Justice Robert Jackson’s in "West Virginia v. Barnette”speaks to rights protected by the
bill of rights, majoritarian or not, that are not subject to the vote. Kerven believes that the
current prudential rules are less constitutional than they should be. Kerven doesn’t dispute
prudential considerations in standing. Nor is he opposed to gatekeeping. However, he believes
that just by tuning these prudential considerations to the rights of the people and the needs of
the government, particularly revenue, rather than judicial philosophies the prudential standing
rules would be more constitutional. The deference shown to the legislature rather than the
citizens in the current rules has undermined the fiscal stability of the republic. This reached its
pinnacle in the TCJA. Kerven notified the government of these transactions before the bill was
passed. The due process rules quieted to show deference to the legislature may now need to
be amplified by the court to counter the deference showed to the oligarchy with favorable tax
benefits.
We were on a worldwide system of taxation til the end of 2017. the statutory rate even for
Deferred Income Corporations was 35%. No one disputes the legislatures jurisdiction to set
tax rates. However Kerven believes the Legislature does not have the right to vote legislation
that in fact violates Vance v. Bradley by voting tax discounts to tax entities like deferred income
corporations 965 of the code that anticipate the vote. This seems to me to be an intervention in
the Democratic process. But here if is the legislature doing what the court will not do. This is
not political question doctrine legislative intent that the court might defer too. This is rigged
legislative reflection. Kerven has pursued it since before the TCJA. In the forum of the unknown
you might as well try to do what’s right. He also believes with rare opportunities to balance the
forces in the economy, push back to forces that have participated in that imbalance in violation
of tax precedent is warranted.

".v* v.-r-r*

3

STATEMENT OF CASE KERVEN V. UNITED STATES
PART ONE***

KERVEN a roofing contractor from Syracuse majored in accounting at the

Lubin School of Accounting at Syracuse. He determined early on that the TCJA was rigged.
Kerven wrote a letter to then Attorney Yoon in the SDNY noting a rebate in the repatriation
section of the bill. Kerven also filed a complaint with the attorney general of New York State. He
then mailed his letter to Attorney Yoon to 47 of the C-corps that hold qualifying ownership in
what are known as Deferred Income Corporations (26 U.S.Code 965) used to avoid taxes.
Kerven believes these transactions to be tax evasion. These three forms of complaints/
grievances were postmarked on 12/30/17 before the bill went in to effect.
Off shore corporations are out of hand. The legislature has provided Wall Street the
“legislature” rubber stamp. The court must rethink its deference to the legislature and get some
kind of control on this off shore activity.
Kerven’s original intention in his suit was the return of 200 to 400 billion dollars to the U.S.
Treasury for illegal transactions allowed in the repatriation section of the TCJA.
PART TWO

Kerven found late in the case he needed a level playing field and likely a

citizen suit to bring his case. He clearly hadn’t been taken seriously by the Appellate court. He
believed the court’s theory of standing to be unconstitutional or less constitutional than it could
be. The court’s current prudential standing fails to protect citizen rights, majority or minority
guaranteed in the Bill of rights. Justice Jackson has noted in “West Virginia v. Barnette” 319
U.S.624 (1943) “these rights are not subject to any vote”. Kerven believes the court’s
requirement of an individualized injury applied to a citizen suit is is a canard used by the
architect of current prudential standing to eliminate citizen suits. He realized this about the time
of his petition for en banc hearing in the Appellate court.
From the time of his decision in the NDNY till the en banc rehearing in the Appellate court he
had been trying to get standing. It was a waste of time.
Kerven believes the constitution requires a completing theory of standing which allows the
citizen suit. Kerven does not have a constitutional difficulty with the generalized grievance. You

4

probably get a lot of generalized grievances. I’ve written a couple. Kerven believes to honor the
constitution and not abridge the citizens rights to the extent the current prudential standing
rules do, a requirement of a “sufficient particularized grievance” or the “exceptional
particularized grievance” could be used for the rare citizen suit that passes muster. The court
would still hold the prudential discretion to determine whether a “sufficient particularized
grievance” or an “exceptional particularized grievance” whichever term the court chooses is a
run of the mill generalized grievance.
OK LET US STOP AND REVIEW. THERE IS A LOT GOING ON HERE. Kerven brought a suit
against the TCJA. Like many before him, Kerven who voluntarily donned the green robe of the
rookie pro se litigant met up with the brick wall of standing in Judge D’Agostino’s NDNY
decision. Kerven appealed to the 2nd circuit. They didn’t give him the time of day.
Judge D’Agostino of the NDNY who is required to apply the same current prudential standing
theory as the 2nd circuit appellant court had been more careful. The truth that stuck out in her
decision was the “incident to” of standing versus “bedrock” of controversy. She cites “Valley
Forge Christian College v. Americans United for Separation of Church and State lnc.”454 U.S.
464,471(1982). She also cited “Lujan v. Defenders of Wildlife’,504 U.S. 555,560(1992). The 68
year old Kerven was suspicious of Lujan’s from the start. It’s a too exotic. It seemed like a
hollow vessel. It’s plane tickets concurrences were a denial of standing in that case.
Kerven wonders if Justice Blackmun was familiar with the “Doctrine”
Kerven sensed the 2nd circuit thought of his case, as a pro se case of a type and wanted to roll
him for standing. In my reply brief I included a highly particularized grievance of my specific
repatriation grievance. Heeding Justice D’Agostino’s accents i emphasized my “controversy”
over Court’s “as incident to”, (see reply brief Appendix A) My old pal Mike was in from the west
coast vacationing in Syracuse with his wife Heather. Mike’s a dual Newhouse grad and life long
editor. I would call this riding shotgun as much as editing. After a sit down and a couple more
email exchanges he emailed my reply brief back to me. I had what I wanted. What I wanted
was a distinct particularized grievance of my controversy. My point is it wasn’t a generalized

: 5

grievance of the type claimed in the Appellate decision.
Reviewing once again with a little hindsight including an interest of mine that I didn’t yet know i
would use. I focused on the repatriation grievance in my reply brief. My point was to distinguish
it from from run of the mill generalized grievance in a particularized grievance in my reply brief.
Early on, I had made some generalized grievances that I now don’t think should have given me
standing.
The repatriation grievance in my reply brief is where I thought I should have been considered
for standing. Presented as an “exceptional particularized grievance” or a “sufficient
particularized grievance” the court still would retain the prudential discretion to judge it a
generalized grievance (or an insufficient grievance or an unexceptional grievance). This way it
remains in the real world of grievance. It’s not an illogical specified unspecified allotment of
injury from “Lujan’s “on its way over to be coming a generalized grievance at “Warth” to fulfill
someone’s judicial philosophy. There was a clear distinction between the particularized
grievance in my reply brief and my earlier generalized grievances. I believe the particularized
grievance requires a judgement. The court didn’t think so, or more accurately made no
comment about my particularized grievance. I’m aware that it didn’t have to.
There are two comments (below) singled out from the appellate court decision. Both point to
glaring flaws in current prudential standing. The first one exposes the need for the citizen suit.
There is no shared generalized grievance in my repatriation grievance. It isn’t a“l’m a taxpayer”
generalized grievance. The public doesn’t understand my repatriation grievance (presented
after the court comments below). They don’t share the “grievance” with me. They don’t know
the nature of their injury. As to the second comment from the court’s decision, it suggests the
court must protect the majority rights discussed by Justice Jackson in “West Virginia”,
including a reasonable ability to bring a citizen suit.. The court can’t abdicate protections of the
majority because of the vote. A particularized injury is not a requirement for the protection of
the court. A Popper Falsification from the Justice Brandeis concept of “government as bad
actor” suggest that the legislature can even be the cause of many “un particularized” injuries.

6

The legislature shouldn’t get immunity from everything because of the vote. It may just be a
violation of the court’s jurisdiction by the legislature but the court has to call them on it. If
Kerven happens to be right and the legislature violated “Vance v. Bradley” in writing the TCJA,
they should be called on it.
When i received the Summary Order I was irate. I’m not an irate guy. I don’t fault the appellate
court for applying what they applied. I fault what they applied. After reading the order, I didn’t
think the prudential standing rules were flawed. I knew the prudential standing rules were
flawed. Call it muscle memory at this point. That doesn’t mean the theory won’t be sustained.
That doesn’t mean I can do anything about it. But the standing rules are wrong. There are two
lines in the decision that particularly stand out. Page 3. And “when the harm is a ‘generalized
grievance’ shared in substantially equal measure by all or a large class of citizens, that harm
alone doesn’t normally warrant jurisdiction, “Warth v. Seldin" 422 U.S. 490,499, (1975). And
the last line in the order. “Further, Kerven’s argument that the injury he asserts was applicable
to everyone undermines that he suffered a particularized injury. See “Warth” 422 U.S. at
499.”These were the quotes discussed above.
Now I want to look at my look at my particularized grievance on the repatriation originally
presented more clearly from earlier attempts in my reply brief. The repatriation was a rigged
transaction in the TCJA that lowered the taxes of 26 U.S. code 965 entities known as deferred
income corporations after the fact. Involved in that transaction kerven believes was a debt
rebate that should have had a debt reconciliation based on their reporting standard ASC 740.
(We’re not off to what the rest of the world calls a generalized grievance, the court could still
deem it a generalized grievance but the shouldn’t be allowed to ignore it.
Kerven now believes, and he makes this legal claim only as of this writ - it took him a long time
to figure it out - that the repatriation is a violation of “Vance v. Bradley”. It’s a strange twist.
“Vance v. Bradley” 440 U.S.93,97 (1979) States: “The Constitution presumes that, absent
some reason to infer antipathy, even improvident decisions will be rectified by the democratic
process and judicial interventions are generally unwarranted, no matter how unwisely a political

7

branch has acted”. Here we get a different twist on the the separation of powers argument
championed by Justice Scalia in his thesis. He believed the legislature and the executive
vindicated the public interest. Unfortunately, armed with Justice Scalia’s non intervention in the
legislature, Wall Street ate the public’s lunch with these offshore corps.. In my view Wall Street
equipped with the Rubber Stamp of the Legislature made the Legislature unwittingly intervene
in the jurisdiction of the court by intervening in the in place tax law up to the end of 2017 a
violation of “Vance v. Bradley. These offshore entities called deferred income cooperates are
entities that anticipate the vote. That is what the deferred income corporations (section 965 of
the code) do. The legislature has the jurisdiction to establish a new STR any time it wants
based on the vote. Yet It doesn’t have the right to retroactively grant these entities a discount
that await the vote because these entities are in violation “Vance v. Bradley” in my opinion. In
accounting’s favorite legal concept “substance v. form” the structure of these entities allow
them to wait for the right political configuration of the executive and congress to vote them a
discount against their statutory rate of 35%. Even if you want to claim that the tax provision is
retroactive with the absurd distinction of giving money back, there should be a required debt
reconciliation whether the government pays any debt or not. If the government is accruing
debt during the time these Deferred income corporation’s DTA (Deferred Tax Asset) is active
when the U.S. government was a on world wide system of taxation (it was til the end of 2017),
where the STR of these 965 entities was 35%, reporting yearly under their accounting
convention ASC 740 then a certain amount of that accruing debt (to the national debt) applies
to them at their STR as it does to every other entity at their STR’s whether the government
pays the debts or not. If every entity including Rudy the Roofer and Chief Justice Roberts is
paying their tax at their STR, if you lower the statutory rate of these favored repatriation entities
after the fact, instead of the amount accrued to their account at 35%. their share becomes
15.5%,with the other 19.5% put back into the pot and picked up by Rudy, Chief Justice
Roberts and all other tax entities at their STR’s going forward. And of course the Parent
corporations where the discounted profits of these deferred foreign income went when nit was

8

repatriated got from the legislature or its rubber stamp a 40% discount on their corporate tax
rate from 35% to 21 %. Now maybe I’m wrong or missed something but if I had an
individualized particularized injury at least the court could ask around. My proposal is that in
some cases a citizen suit a “sufficient particularized grievance” or an “exceptional
particularized grievance” with a common injury to the petitioner could be used. Kerven figures
this one cost the government 200 to 400billion dollars. 53 billion from Apple alone.
I was beginning to fight standing. It was likely to be a futile attempt. I decided to use the
Justice Brandeis concept of government as bad actor in my en banc petition. I wasn’t able to
fully develop it in time for the en Banc petition rehearing. But my point was this. By using
government as bad actor i would be able to scramble and rattle the number of injuries where
there were many common injuries and the requirement of an individualized injury was illogical.
Are those with a common injuries not injured? It is called a Popper falsification. Standing theory
meet a case it couldn’t handle. My petition for rehearing was denied.
I couldn’t believe i used the term Popper Falsification and still didn’t know where I was. In
aways I got it.
Very soon after that I reviewed to initiate my writ. I metaphorically hired Brandeis. I determined
he couldn’t get standing either with his Brandeis Arithmetic. Then it occurred to me that God
herself, with her superior investigative skills couldn’t get standing. I’m beginning to think the
court’s prudential standing rules are a little too precious.
I reread the Appellate decision. I remember my first reading of “leading the calf to slaughter”running the gauntlet from “Lujan”s to “Warth Seldin”.
But I finally knew where I was. It is one of those strange situations we all find ourselves in at
some point. We come around the last corner and we’re in familiar territory. I was well aware of
Justice Scalia’s opinion in “Lujan v. Defenders of Wildlife” 504 U.S.555, 560 (1992) ” and his
affinity for it. I finally asked where did this all come from. This is somebody’s theory. I had a
good idea whose and quickly found it. I’ve had a 40+ year passion for reading science theory.
I’m sorry. It is a theory built to fit Justice Scalia’s judicial philosophy.

9

The current prudential theory unnecessarily abridges majoritarian rights. The use of the
individualized injury in a citizen suit is a canard to fulfill Justice Scalia’s judicial philosophy of
“over judicialization” and to eliminate citizen suits. It uses “LuJans” which is too exotic to hold
the key to standing. It misdefines terms. An injury is individualized by definition, a grievance is
a claim to injury. When common injuries are suffered they are all individualized. His
individualized injury is an injury he wants to take somewhere like “Warth v. Seldin.”422 U.S.
490,499 (1975). His theory fails to protect the rights of the citizens rationalizing his version of
standing theory claiming it is “Essential to the Separation of Powers”. But even here his
separation of powers has a bias toward the legislature. We may well be more endangered by
oligarchy using the Legislature rubber stamp or a Plutarchian redistribution of wealth that kills
republics. My repatriation claim is the legislature intervening in court’s jurisdiction.
Theories often become the passion of their originators. Sometimes an obdurate passion. They
can burden those in the field.
By far my greatest criticisms are: 1. the original one lodged by Blackmun in his dissent in
“Lujans”, the elimination of the citizen suit, 2. the failure to assess the efficacy of standing
theory in the era of debt. It has been well pointed out by The U.S. tax economist Martin
Sullivan when writing tax law, corporations are not the legislature’s partner. The legislature gave
Wall Street rubber stamp. The doctrine then over sells the idea that the legislature and the
executive vindicate the public interest. 3. it allows theoretical deficiencies of prudential theory
as theory, to fulfill someone’s judicial philosophy over the guaranteed rights of the constitution.
The individualized injury is redundant and a false witness in a citizen suit where there are
common injuries, common injuries are individualized injuries, injury is defined in injury and
individualized by nature, a grievance is a claim to injury. We understand what he means but his
limitation on injury is to serve his purpose not the complete reality of either grievance or injury
4. Present but not cited and the justices will be better on this than I, the doctrine seems borrow
from Holmes II down to the idea of judges voting with their class, a previous but more
tempered theme from Holmes II. His whole theme of minority rights and the vote seems to

10

have the feel of Bi-Metallic Investments v.-State Board of Equalization.” i think Justice
Jackson’s comments above raise questions about current prudential theory with regard to
guaranteed rights and protection of all citizens. Justice Brandeis and his concept of
government as bad actor have real authority in standing theory and raise the need for the
occasional citizen suit in a more complete theory.
This is not criticism but an observation. There are those of us that have cheated and had to
face it. There are others that think it’s a skill. The tax precedents and the anti injunction in tax
cases were written to guarantee income to the government. The preferred method of tax
avoidance now is to get your tax avoidance and sometimes evasion written into tax law. Those
that practice this strategy are well aware of the difficulty of getting standing. This one of the
places where an occasional citizen suit might be helpful. Those with iniquitous intent
sometimes remain iniquitous. I thought I’d give Justice Alito another quote,
it is worth noting that Justice Brandeis was dismissed by the Boston Fruit and Produce
Exchange. He appeared in court as a citizen representing the citizens of Massachusetts.
REMEMBER O. STRANGER, ARITHMETIC IS THE FIRST OF THE SCIENCES AND THE
MOTHER OF SAFETY.

11

REASONS FOR GRANTING THE PETITION
The current prudential standing rules are unconstitutional. Taken from Antonin Scalia’s “The
Doctrine of Standing as an Essential Element of the Separation of Powers” page 894 SUFFOLK
UNIVERSITY LAW REVIEW; Vol.XVII:881. “Thus when the individual who is the very object of a
law’s requirement or prohibition seeks to challenge it, he always has standing. This is the
classic case of the law bearing down on the individual himself, and the court will not pause to
inquire whether the grievance is a “generalized” one.” The key to Kerven’s claim of
unconstitutionality lies in what Justice Scalia is trying to sell in his half premise. The fact the
court pauses, doesn’t turn all grievances into a generalized grievance that back adheres to his
mis-defined individualized injury. His theory is incomplete. It’s unconstitutional in abridging
redress. Kerven isn’t asking the court to give up its discretion over grievances.
There is no requirement in the constitution for an individualized injury in the way Justice Scalia
wants to define it. One simply would have go through the awkward process of challenging the
standing law prior to lodging his grievance against the TCJA. That’s what I’m doing. The
standing law then “individually’ bears down on him. The standing law is unconstitutional
because it tries to limit constitutional access to redress by creating a specified unspecified
number of injuries^over which redress doesn’t apply, which is really the current prudential
standing rules definition of injury. When an individualized injury goes to administration they
allow an unspecified more. The classic case is Justice Holmes IPs feeling the need to come out
and justify “Londoner” after “Bi-Metallic Investments”. An injury and its individualization are
defined in injury. You don’t get to leave the real world of the rest us to create definitions that fit
your judicial philosophy. It sanctions bad actions by those that reverse engineer your theory. It
is possible you taking standing away from their adversaries.
Injuries initiated by bad actions don’t lose their redress at a certain number. You can’t drive
your concocted individualized injury over to your generalized grievance. You don’t get to
abridge redress to cut off access. Access can be difficult, unfair, but the fundamental purpose
of access doesn’t get altered. The Brandeis concept of government as bad actor also blew a
whole in standing theory. The TCJA was government as bad actor. The theory is incomplete.
GRANT THE WRIT BECAUSE I’M ARGUING STANDING FOR GOD HERSELF. OF COURSE
OTHERS MAY NOT HOLD MY TRANSGRESSIONS.
r'-^~
v

■

12

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

/

Date:

T

13

